No. 19-307
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STUART A. MCKEEVER, PETITIONER
v.
WILLIAM P. BARR, ATTORNEY GENERAL
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 22nd day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6204 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 22, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 22, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0307
MCKEEVER, STUART A.
WILLIAM P. BARR, ATTORNEY GENERAL

BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM

